APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(March 9, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order Granting Defendant’s Motion
for Summary Judgment (Dkt. 25) in
the United States District Court
Central District of California
(February 11, 2020) . . . . . . . . . . . App. 6
Appendix C Judgment in the United States
District Court Central District of
California
(February 11, 2020) . . . . . . . . . . App. 27
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Ninth Circuit
(May 10, 2021) . . . . . . . . . . . . . . App. 28

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-55234
D.C. No. 2:17-cv-02652-DSF-AFM
[Filed: March 9, 2021]
_______________________________________
ROMAN ANDY JANIEC; et al.,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF GLENDORA,
)
a municipal corporation,
)
)
Defendant-Appellee.
)
_______________________________________)
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
Dale S. Fischer, District Judge, Presiding

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Submitted March 5, 2021**
Pasadena, California
Before: KLEINFELD, CALLAHAN,
HIGGINSON,*** Circuit Judges.

and

Appellants filed suit in the district court against
Appellee City of Glendora asserting a cause of action
under 42 U.S.C. § 1983. Appellants alleged that the
City violated their constitutional rights by selectively
enforcing municipal code violations against them and
their business in retaliation for Appellants’ outspoken
criticism of the City and City officials, which resulted
in Appellants losing their business. The City filed a
motion for summary judgment. The district court
granted the motion and dismissed the case.
We review de novo a district court’s grant of
summary judgment. Jones v. Royal Admin. Servs., Inc.,
887 F.3d 443, 447 (9th Cir. 2018). We review the
district court’s evidentiary rulings for abuse of
discretion. Domingo ex rel. Domingo v. T.K., 289 F.3d
600, 605 (9th Cir. 2002). In analyzing a motion for
summary judgment, we “must determine whether there
are any genuine issues of material fact and whether
the district court correctly applied the relevant
substantive law.” Jones, 887 F.3d at 447 (citation
omitted). “A district court’s ruling on a motion for

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2)
***

The Honorable Stephen A. Higginson, United States Circuit
Judge for the U.S. Court of Appeals for the Fifth Circuit, sitting by
designation.

App. 3
summary judgment may only be based on admissible
evidence.” In re Oracle Corp. Sec. Litig., 627 F.3d 376,
385 (9th Cir. 2010).
1. Appellants argue that there is a genuine dispute
of material fact as to whether the City faces municipal
liability under Monell v. Department of Social Services,
436 U.S. 658 (1978). We disagree.
“While local governments may be sued under
§ 1983, they cannot be held vicariously liable for their
employees’ constitutional violations.” Gravelet-Blondin
v. Shelton, 728 F.3d 1086, 1096 (9th Cir. 2013) (citing
Monell, 436 U.S. at 690, 694). Instead, “[u]nder Monell,
municipalities are subject to damages under § 1983 in
three situations: when the plaintiff was injured
pursuant to an expressly adopted official policy, a
long-standing practice or custom, or the decision of a
‘final policymaker.’” Ellins v. City of Sierra Madre, 710
F.3d 1049, 1066 (9th Cir. 2013) (quoting Delia v. City of
Rialto, 621 F.3d 1069, 1081–82 (9th Cir. 2010)).
Appellants do not identify an expressly adopted official
policy as a source of their alleged injuries; instead,
they claim they were subjected to constitutional injury
due to both a longstanding custom or practice and the
actions of the City’s final policymakers.
(a) Appellants argue—in a single sentence,
unaccompanied by record citations or specific legal
authority—that actions by the City demonstrate “a long
standing custom or practice of the City to drive
[Appellants] out of business.” For the reasons stated
by the district court, Appellants’ evidence purporting to
show this “practice” is unavailing. The only admissible
and relevant evidence supporting Appellants’
contention is that the City’s Community Preservation

App. 4
Officer (“CPO”) issued nineteen citations to Appellant
Roman Andy Janiec between March 10, 2015, and
January 29, 2016. This evidence tells us nothing about
the City’s motives—whether the City issued the
citations for legitimate reasons or, as claimed by
Appellants, in order to impermissibly drive Appellants
out of business. In any event, this alleged singling out
of Janiec is insufficient to establish “custom or
practice” Monell liability. See Christie v. Iopa, 176 F.3d
1231, 1235 (9th Cir. 1999) (“Plaintiffs cannot satisfy
the requirement of a longstanding practice or custom,
because they allege to the contrary that a county
official has singled them out for unique treatment.”).
(b) Appellants separately argue that the City
Manager “directed” the City’s CPO to conduct the
allegedly unconstitutional code enforcement actions.
The district court, however, ruled that the evidence
purporting to show the City Manager’s direction of the
code enforcement actions was either irrelevant or
inadmissible. Because Appellants do not contend in
their appeal brief that the district court committed
error in its evidentiary rulings, they have waived their
ability to challenge those rulings. Tsao v. Desert Palace,
Inc., 698 F.3d 1128, 1137 n.13 (9th Cir. 2012) (holding
that issues not raised in an opening appeal brief are
waived).
In sum, Appellants failed to put forth admissible
evidence that, if true, would demonstrate the City is
subject to municipal liability under Monell. As a result,
there is no genuine dispute of material fact as to the
City’s liability and the district court did not err in
granting summary judgment in favor of the City. See

App. 5
Nissan Fire & Marine Ins. Co. v. Fritz Companies, Inc.,
210 F.3d 1099, 1102-03 (9th Cir. 2000).
The district court’s decision is AFFIRMED.

App. 6

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV 17-2652 DSF (AFMx)
[Filed: February 11, 2020]
_______________________________________
ROMAN ANDY JANIEC; et al.,
)
Plaintiffs,
)
)
v.
)
)
CITY OF GLENDORA, et al.,
)
Defendants
)
_______________________________________)
Order GRANTING Defendant’s
Motion for Summary Judgment (Dkt. 25)
Defendant City of Glendora moves for summary
judgment on all claims brought by Plaintiffs Roman
Andy Janiec (Andy), Slawomira Janiec (Slawomira),
and Jonathan Andrew Janiec (Jonathan). The Court
deems this matter appropriate for decision without oral
argument. See Fed. R. Civ. P. 78; Local Rule 7-15.
I. UNDISPUTED FACTS
Between 2005 and 2016 Andy rented property
located on Route 66 (the Property) from George Dye
pursuant to an oral month-to-month agreement. Dkt.

App. 7
34-1 (SUF) ¶¶ 1-2.1 Andy owned and operated Andy’s
Auto Center (AAC) on the Property. Id. ¶ 4. AAC
performed car restoration work, which is more
extensive than regular vehicle maintenance and
servicing work, including moving parts from one car to
another. Id. ¶¶ 12, 13. The Property had a front lot
with a small number of vehicles for sale and a rear lot
with 200 or more vehicles waiting for restoration or
service. Id. ¶ 14. AAC received a business license
every year from 1985 to the present, but never had a
dismantler’s license issued by the DMV. Id. ¶¶ 7-8.
AAC also had a used car dealer license, but it expired
on August 15, 2009 and AAC never applied to renew it
because Andy could not afford the bond. Id. ¶¶ 9-10.
Pursuant to a warrant issued on September 4, 2012,
the City inspected AAC on September 6, 2012 for
compliance with the Glendora Municipal Code (GMC or
the Code). Id. ¶¶ 15-16. On October 11, 2012, the City
sent Dye and Andy letters advising them that there
were violations of the Code on the Property, including
operating a “pick a part” business, performing major
vehicle repairs, operating a vehicle salvage yard, and
illegal storage of vehicles, and that the violations
needed to be cured within certain timeframes. Id.
¶¶ 21-22. The letter also stated that Dye and Andy
1

Citations to SUF refer to Plaintiffs’ Statement of Controverted
and Uncontroverted Facts, which incorporates Defendant’s
proposed uncontroverted facts and Plaintiffs’ responses to those
facts. To the extent certain facts are not mentioned in this Order,
the Court has not relied on those facts in reaching its decision. The
Court has independently considered the admissibility of the
evidence and has not considered facts that are irrelevant or
otherwise based on inadmissible evidence.

App. 8
had five days to inform the City if they believed that
the violations were not correct. Id. ¶ 22. On December
18, 2012, Dye sent Andy a letter requesting that Andy
comply with the City’s demands. Id. ¶ 24. Andy
continued to perform body work, painting, engine and
transmission removal and replacement, and removal
or exchange of mechanical parts. Id. ¶ 23. Andy also
stored vehicle parts outdoors. Id. ¶ 33. Dye visited
the Property approximately 100 times between 2012
and July 2016, taking photographs because he was
frustrated with Andy’s failure to comply with the
City’s requirements. Id. ¶¶ 28-29. During those visits,
Dye saw approximately 200 inoperable vehicles, 150 of
which required a lot of restoration. Id. ¶ 31. Dye
encouraged Andy to remove the inoperable vehicles
from the Property and had 100 or more conversations
with Andy about it. Id. ¶¶ 34, 36. As of December
2015, at least 100 of the vehicles had been on the back
lot of the Property for at least ten years. Id. ¶ 30. Dye
initiated the eviction process in December 2015, but
Andy did not surrender possession until July 2016
pursuant to a stipulation for judgment. Id. ¶¶ 85-87.
Andy did not always pay rent on time and owed Dye
rent as of July 2016. Id. ¶¶ 5, 83.
On March 10, 2015, the City issued an
administrative citation to Andy for storing inoperative
vehicles on the Property and gave Andy ten days to
correct the violation. Id. ¶¶ 37-38. On March 23, 2015,
March 30, 2015, and May 26, 2015, Andy was again
issued administrative citations for storing inoperative
vehicles on the Property. Id. ¶¶ 39-41. Andy appealed
the May 26 citation. Id. ¶ 42. On July 1, 2015, the City
issued an administrative citation for operating an

App. 9
illegal auto dismantler business. Id. ¶ 43. Andy
appealed the citation. Id. ¶ 44. Between September
24, 2015 and January 28, 2016, the City issued at least
nine more administrative citations for the inoperative
vehicles, which Andy appealed each time. Id. ¶¶ 45-62.
At each of the court trials of Andy’s appeals, he
testified and argued that he had not violated the Code
and that the City was improperly prosecuting the case
against him and was discriminating against him. Id.
¶¶ 64-65.
On or about October 27, 2015, the City obtained a
warrant to inspect real property located on North
Glendora Avenue (Glendora Property) and inspected
the property the same day. Id. ¶¶ 66-67. Plaintiffs
were not present at the time of the inspection. Id.
¶ 103. Andy lives in a motor home on the Glendora
Property. Id. ¶ 90. Jonathan has not lived on the
Glendora Property since before January 2014, when all
of the structures on the Glendora Property burned in
the Colby fire. Id. ¶¶ 89-91. On or around November 4,
2015, the City sent a letter to Andy and his wife
Slawomira notifying them of the violations at the
Glendora Property. Id. ¶ 68. After Andy and
Slawomira had not remediated the violations for four
months, the City issued an Ordinance Violation Notice
on or about March 4, 2016. Id. ¶ 69. The City never
sent Andy an administrative citation or a criminal
citation in connection with the Glendora Property. Id.
¶ 92. Neither Slawomira nor Jonathan has ever been
issued a citation by the City. Id. ¶¶ 94, 99.

App. 10
II. LEGAL STANDARD
“A party may move for summary judgment,
identifying each claim or defense – or the part of each
claim or defense – on which summary judgment is
sought. The court shall grant summary judgment if
the movant shows there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). “This burden
is not a light one.” In re Oracle Corp. Sec. Litig., 627
F.3d 376, 387 (9th Cir. 2010). But the moving party
need not disprove the opposing party’s case. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986). Rather, “the
burden on the moving party may be discharged by
‘showing’—that is, pointing out to
the district
court—that there is an absence of evidence to support
the nonmoving party’s case.” Id. at 325. If the moving
party satisfies this burden, the party opposing the
motion must set forth specific facts, through affidavits
or admissible discovery materials, showing that there
exists a genuine issue for trial. Id. at 323-24; Fed. R.
Civ. P. 56(c)(1). A non-moving party who bears the
burden of proof at trial as to an element essential to its
case must make a showing sufficient to establish a
genuine dispute of fact with respect to the existence of
that element of the case or be subject to summary
judgment. See Celotex Corp., 477 U.S. at 322.
The “mere existence of alleged factual dispute
between the parties will not defeat an otherwise
properly supported motion for summary judgment; the
requirement is that there be no gen issue of fact.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986). An issue of fact is a genuine issue if it

App. 11
reasonably can be resolved in favor of either party. Id.
at 250-51. “The mere existence of a scintilla of
evidence in support of the [non-movant’s] position will
be insufficient; there must be evidence on which the
jury . . . could find by a preponderance of the evidence
that the [non-movant] is entitled to a verdict . . . .” Id.
at 252. “Only disputes over facts that might affect the
outcome of the suit under the governing law will
properly preclude the entry of summary judgment.”
Id. at 248.
“[A] district court is not entitled to weigh the
evidence and resolve disputed underlying factual
issues.” Chevron Corp. v. Pennzoil Co., 974 F.2d 1156,
1161 (9th Cir. 1992). “Summary judgment is improper
‘where divergent ultimate inferences may reasonably
be drawn from the undisputed facts.’” Fresno Motors
v. Mercedes Benz USA, LLC, 771 F.3d 1119, 1125 (9th
Cir. 2014) (citing Miller v. Glenn Miller Prods., Inc.,
454 F.3d 975, 988 (9th Cir. 2006)). Instead, “the
inferences to be drawn from the underlying facts must
be viewed in the light most favorable to the party
opposing the motion.” Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587-88 (1986)
(citation and ellipsis omitted). “A district court’s
ruling on a motion for summary judgment may only be
based on admissible evidence.” Oracle, 627 F.3d at
385. A party seeking to admit evidence bears the
burden of proof to show its admissibility. Id.
III. DISCUSSION
Plaintiffs assert one cause of action against the City
for a violation of 42 U.S.C § 1983 based on five alleged
constitutional violations: 1) Petition Clause of the First

App. 12
and Fourteenth Amendments, 2) the Search and
Seizure Clause of the Fourth and Fourteenth
Amendments, 3) Fifth Amendment Takings Clause,
4) Substantive and Procedural Due Process Clause of
the Fourteenth Amendment, and 5) Equal Protection
Clause of the Fourteenth Amendment. Dkt. 1 (Compl.)
¶ 28.
A. Preliminary Issues
1. Collateral Estoppel
Collateral estoppel, or issue preclusion, “applies
(1) after final adjudication (2) of an identical issue
(3) actually litigated and necessarily decided in the
first suit and (4) asserted against one who was a party
in the first suit or one in privity with that party.” DKN
Holdings LLC v. Faerber, 61 Cal. 4th 813, 825 (2015) .
The City argues that “the issues in the citation
appeals litigated in the Superior Court are identical to
the issues in this action” and that “Andy had a full and
fair opportunity to litigate the issue(s) in the Superior
Court proceedings.” Mot. at 28. The City’s brief
contains no additional facts or argument explaining
which “issues” were identical or the extent to which
they were “actually litigated and necessarily decided.”
In Reply, the City appears to limit this argument to
“the finding of Andy’s violations of the municipal code.”
Dkt. 37 (Reply) at 16. Plaintiffs argue that the “appeal
of the administrative citations”
are “‘special
proceedings’ under state law and are not subject to
issue preclusion” because they do not “provide an
adequate opportunity to litigate a claim.” Opp’n at 11.

App. 13
The Court will give preclusive effect to the sole issue
of whether Andy violated the Code for the citations
that he appealed to the Los Angeles County Superior
Court. That issue was actually litigated and
necessarily decided by the state court in a final
adjudication in which Andy was a party. See SUF
¶ 64 (Andy testified and argued to the Court that he
had not violated the Code).
2. Heck Bar
The City argues that Heck v. Humphrey, 512 U.S.
477 (1994) prevents federal courts from “hear[ing] a
state prisoner’s § 1983 claim for damages based on a
violation of federal rights if doing so would necessarily
imply the invalidity of the prisoner’s conviction or
confinement, unless that prison can first show that the
conviction was overturned.” Mot. at 28. While this
may very well be a correct statement of the law, the
City has cited no authority extending the “Heck bar”
to a civil plaintiff challenging administrative citations
upheld by the state court and the Court declines to do
so.
3. Statute of Limitations
The City argues that the statute of limitations bars
any claims related to conduct that occurred prior to
April 17, 2015, two years before Plaintiffs brought this
action. Plaintiffs argue that the continuing violation
doctrine applies and therefore “all the claimed
violations are actionable.” Opp’n at 11. The Ninth
Circuit has “recognized two applications of the
continuing violations doctrine.”
Bird v. Dep’t of
Human Servs., 935 F.3d 738, 746 (9th Cir. 2019). The

App. 14
first is the “serial acts branch” which applies to related
acts, when at least one of the acts comes within the
limitations period. See id. The second is the
“systematic branch,” which applies when the defendant
maintains “a discriminatory system both before and
during [the limitations] period.” Id. (alteration in
original) (quoting Gutowsky v. Cty. of Placer, 108 F.3d
256, 259 (9th Cir. 1997)). The City notes that the
Supreme Court and subsequent Ninth Circuit decisions
have “limited the serial acts branch of the continuing
violations doctrine.” Reply at 16. Where there are “a
number of discrete acts . . ., each of which allegedly
violated [plaintiff’s] constitutional rights,” any acts that
occurred outside the limitations period are time-barred.
Carpinteria Valley Farms, Ltd. v. Cty. of Santa
Barbara, 344 F.3d 822, 829 (9th Cir. 2003). And while
the Supreme Court addressed only the serial acts
branch, the Ninth Circuit has “abrogate[d] the
systematic branch of the continuing violations doctrine
as well.” Bird, 935 F.3d at 747. Therefore, “the serial
acts branch is virtually non-existent” and “the
systematic branch” cannot be used “to rescue
individualized claims that are otherwise time-barred.”
Id. at 748. However, while any “timebarred acts [can]
not be used to support claims of constitutional
violations under 42 U.S.C. § 1983,” Plaintiffs “may use
these time barred acts . . . as evidence to establish
motive and to put [their] timely-filed claims in
context.” Carpinteria Valley Farms, 344 F.3d at 829.
Specifically, the 2012 inspection and any citations
issued prior to April 17, 2015 cannot form the basis of
a constitutional violation, but can be used as evidence
to put the timely 2015 and 2016 citations and related
actions in context.

App. 15
B. Monell Liability
“While local governments may be sued under
§ 1983, they cannot be held vicariously liable for their
employees’ constitutional violations.”
Gravelet-Blondin v. Shelton, 728 F.3d 1086, 1096 (9th
Cir. 2013) (citing Monell v. Dep’t of Soc. Servs. of City
of New York, 436 U.S. 658, 690 (1978)). Municipalities
can only be subject to damages for a Section 1983
claim under Monell, “when the plaintiff was injured
pursuant to an expressly adopted official policy, a
long-standing practice or custom, or the decision of a
‘final policymaker.’” Ellins v. City of Sierra Madre,
710 F.3d 1049, 1066 (9th Cir. 2013). The challenged
policy, practice, custom, or decision must be both the
cause-in-fact and the proximate cause of a plaintiff’s
injuries. See Gravelet-Blondin, 728 F.3d at 1096.
1. Expressly Adopted Official Policy
The City argues that there is no evidence of
“patently obvious inadequate training of any officers or
notice of and acquiescence in an unconstitutional
policy by city policy makers.” Mot. at 18.
a. Training
“[I]nadequacy of police training may serve as the
basis for § 1983 liability only where the failure to train
amounts to deliberate indifference to the rights of
persons with whom the police come into contact.” City
of Canton, Ohio v. Harris, 489 U.S. 378, 388 (1989). A
city shows deliberate indifference where “in light of the
duties assigned to specific officers or employees the
need for more or different training is so obvious, and
the inadequacy so likely to result in the violation of

App. 16
constitutional rights, that the policymakers of the city
can reasonably be said to have been deliberately
indifferent to the need.” Id. at 390.
The City has submitted undisputed evidence that
police officers undergo certain “training covering
various aspects of law and law enforcement, in
accordance with POST standards and guidelines.” Mot.
at 18; SUF ¶ 107. Plaintiffs have not submitted any
evidence that such training is inadequate, that any
inadequacy is “so obvious,” or that any of the
challenged actions occurred because of inadequate
training. In fact, Plaintiffs do not appear to base their
Monell claim on inadequate training. See Opp’n at
11-13.
b. Allegedly Unconstitutional Policy
There is no evidence (or even allegations) that the
challenged conduct was in any way related to an
“expressly adopted official policy.” Ellins, 710 F.3d at
1066. Plaintiffs allegations in the Complaint are
certainly wanting for detail and their opposition brief
does not provide much additional clarity. As best the
Court can tell, Plaintiffs assert that the City had a
“policy, custom or practice[] to drive plaintiffs out of
business.” Opp’n at 13. However, Plaintiff has not put
forth any
evidence demonstrating an expressly
adopted official policy to do so.
The evidence Plaintiffs rely on in attempting to
stave off summary judgment is either inadmissible or
irrelevant. First, Plaintiffs refer to a news article from
September 1, 2015 about a “Route 66 Specific Plan”
that identified AAC as an “underutilized” property.

App. 17
See SUF ¶ 80; Dkt. 35-4 (Andy Decl., Ex. Q). This
news article is hearsay. Second, Plaintiffs argue that
a draft settlement agreement prepared by the City is
evidence of an impermissible policy. Opp’n at 12-13;
Dkt. 35-5 (Jonathan Decl., Ex. BA). The unsigned
settlement agreement is an inadmissible settlement
negotiation under Federal Rule of Evidence 408. In
any event, Plaintiffs do not point to any specific
language in the settlement agreement that
demonstrates any kind of relevant policy, custom, or
practice. The agreement states that Plaintiffs
requested a waiver of unpaid fines because they are no
longer in possession of the Property and acknowledges
the City would agree to waive the unpaid fines in the
interest of justice and in return for a release of claims
related to the citations. Id. There is nothing in the
draft settlement agreement indicating that the City
was conditioning Plaintiffs’ ability to open a new
business in the City on Plaintiffs
signing the
agreement and waiving their rights to pursue
litigation. To the contrary, it is undisputed that the
City never denied Andy a business license. SUF ¶ 6.
Third, Jonathan declares that the business now
located on the Property, Paul’s RV, had previously been
located on property owned by a former City planning
commissioner, Robert Odell (Odell Property). Dkt. 35
(Jonathan Decl.) ¶¶ 17-18. He declares that in 2012,
Odell entered into a contract with Starbucks and
developer Equitas Foothill, LLC (Equitas) and in 2015
the Odell Property went into escrow. Id. ¶ 18. To
support these statements, Jonathan submits:
• Grant Deed dated October 15, 2014, but
recorded November 15, 2016, granting the Odell

App. 18
Property from ROB Investment Company, L.P.,
signed by Robert Odell, to Equitas
•

Property search report for the Odell Property
showing a sale on November 15, 2016 from RPO
Investment Co to Equitas with a note that “this
transaction was in escrow for approximately
two years. The extended escrow was to find
tenants and for approvals and entitlements”

• Lease dated January 5, 2017 between Equitas
and Starbucks
• Lease dated January 24, 2017 between Equitas
and Autozone
• Property search report for Odell Property
showing a sale on April 3, 2017 from Equitas to
Bitney Springs LLC with a note that “[t]he land
had an existing ground lease with AutoZone
and Starbucks”
• Grant Deed dated April 3, 2017 granting the
Odell Property from Equitas to Bitney Springs,
LLC
Dkt. 35-6 (Jonathan Decl., Ex. NA). This evidence does
not help Plaintiffs for a number of reasons. First,
Jonathan has not provided an adequate foundation for
his purported knowledge that 1) Paul’s RV was leasing
the Odell Property, 2) Paul’s RV is currently leasing
the Property, 3) the Odell who owned the Odell
Property was a former City planning commissioner,
4) Odell was in negotiations with Starbucks to develop
the Odell Property “at the same time the City starts
investigating AAC,” or 5) Starbucks drafted a contract

App. 19
with Odell and Equitas in 2012. Second, the
documentary evidence contradicts
Jonathan’s
declaration, showing that the initial Grant Deed from
Odell was signed in October 2014, not 2012. Third, the
evidence does not contain any contract between Odell
and Starbucks. The only lease agreement included is
between Equitas and Starbucks and Equitas and
Autozone in 2017. Finally, Plaintiffs have no evidence
that Odell, assuming he was a former city planning
commissioner, had any relevance to the City’s actions
in this case. Plaintiffs do not provide evidence
showing when Odell was planning commissioner, or
whether he even knew City Manager Chris Jeffers,
Community Preservation Officer Stephanie Faulkner,
or any other relevant policymakers, or whether he has
any knowledge of Plaintiffs, their businesses, or the
actions in this case. Without any of this, the weak
connection Plaintiffs attempt to draw does not raise a
genuine issue of material fact.
The only admissible evidence Plaintiffs have put
forth establishes that a Community Preservation
Officer (Faulkner) issued nineteen citations to Andy
between March 10, 2015 and January 29, 2016. Dkt.
35 (Andy Decl.) ¶ 29 ; Dkt. 35-3 (Andy Decl., Ex. N).
Andy appealed twelve of those citations; ten were
affirmed with a reduced fine and two were reversed.
See Andy Decl. ¶¶ 30-31; Dkt. 35-4 (Andy Decl., Exs. O,
P). 2 This alone is insufficient to create a genuine

2

The fines were reduced because the City had been citing and
fining Andy for multiple inoperative vehicles on one citation, but
the state court concluded that there should be only one violation,
and therefore one fine, per citation, regardless of the number of

App. 20
dispute of material fact as to whether there was a
policy to drive Plaintiffs out of business.
The City submits evidence that the police
department “maintains a lawful procedure for the
acceptance, processing, investigation and handling of
citizens’ complaints against their police officers.” Mot.
at 18; SUF ¶ 108. However, this evidence does not
clarify the time frame in which this procedure was in
place, what the procedure is/was, and what, if
anything, the current Chief of Police, Lisa Rosales, did
to confirm this procedure was in place prior to her
being hired on February 6, 2017, Dkt. 25 (Rosales
Decl.) ¶ 1, which was well after all of the alleged
actions relevant here. However, neither do Plaintiffs
submit any evidence that any procedure regarding
handling citizen complaints against police officers was
inadequate or unconstitutional or that it caused
Plaintiffs’ injuries. The only policy alluded to by
Plaintiffs is a policy to drive them out of business, not
a policy regarding complaints against police officers.
2. Long-Standing Practice or Custom
The only long-standing practice or custom asserted
by Plaintiffs is “the actions by the City over a long
period of time of well over 5 to 6 years . . . to drive the
plaintiffs out of business.” Opp’n at 13. However,
“Plaintiffs cannot satisfy the requirement of a
longstanding practice or custom” where they claim

inoperative vehicles. Andy Dep. at 92:18-93:5 & Ex. 15. There is
no evidence in the record that including multiple fines for
violations of the same code provision in one citation was pursuant
to a City policy or the decision of a final policymaker.

App. 21
that “a county official has singled them out for unique
treatment.” Christie v. Iopa, 176 F.3d 1231, 1235 (9th
Cir. 1999).
3. Decision of Final Policymaker
“[A] local government may be held liable under
§ 1983 when ‘the individual who committed the
constitutional tort was an official with
final
policy-making authority’ or such an official ‘ratified a
subordinate’s unconstitutional decision or action and
the basis for it.’” Gravelet-Blondin, 728 F.3d at 1097
(alteration in original) (quoting Clouthier v. Cty. of
Contra Costa, 591 F.3d 1232, 1250 (9th Cir. 2010)).
Determining whether the alleged offender is a final
policymaker on a particular issue is not a factual
question, but a matter of state law. See Webb v.
Sloan, 330 F.3d 1158, 1164 (9th Cir. 2003) (“[T]he court
must decide, as a matter of state law and before the
case may be submitted to the jury, whether the person
who committed the violation had final policymaking
authority.”); Ellins, 710 F.3d at 1066 (“Whether an
official is a policymaker for purposes is a question
governed by state law.”).
The allegedly unconstitutional conduct stems from
1) purportedly excessive citations issued to Andy by
Community Preservation Officer Stephanie Faulkner
and 2) Dye evicting Andy and AAC from the Property.
Plaintiffs do not argue that Faulkner or Dye (who is a
private citizen) are final policymakers for purposes of
issuing administrative citations. However, the parties
do not agree on who is the final policymaker.

App. 22
Plaintiffs assert it is the City Manager, relying on the
Code 3 which provides that:
(a) The city manager is authorized to
promulgate procedural rules and regulations
governing the administration of this chapter
[administrative citations].
(b) The city manager, or his or her designee,
shall have the authority to administer and
enforce these provisions for this chapter.
***
(c) The city manager, or his or her designee, may
dismiss a citation at any time if determination
is made that it was issued in error . . .
GMC § 1.18.020(a), (b), (c). The City argues that the
Chief of Police, and not the City Manager, is the final
policymaker in Glendora related to code enforcement.
See SUF ¶ 104 (Chief of Police Lisa Rosales is the
“chief policy maker for the Glendora Police Department
in all aspects of police administration and police
conduct in and for the City of Glendora, including code
enforcement activities which are conducted by police
officers and the community preservation officers of the
Glendora Police Department.”). However, because the
identity of final policymakers is a question of law and
not a question of fact, the declaration of Chief Rosales
3

The Court grants the City’s unopposed request for judicial notice,
Dkt. 25 -3 (RJN), of certain portions of the Glendora Municipal
Code. Fed. R. Evid. 201(b); Tollis Inc. v. County of San Diego, 505
F.3d 935, 938 n.1 (9th Cir. 2007) (Municipal ordinances are proper
subjects for judicial notice).

App. 23
is not dispositive. 4 In Reply, the City highlights the
language “or his or her designee” in the GMC, Reply at
11, but it does not argue or submit any law showing
that the Police Chief has in fact been designated by the
City Manager to be the final policy maker regarding
administrative citations and code enforcement.
5
Moreover, the City Manager is not permitted to
delegate the promulgation of rules and regulations
governing administrative
citations, only
administration and enforcement. Therefore, the Court
concludes that the City Manager is the final
policymaker regarding the issuing of administrative
citations in Glendora.
That being said, Plaintiffs have not submitted any
admissible evidence that Jeffers directed Faulkner to
commit the alleged constitutional violations or that
Jeffers pressured Dye to evict Andy. To the contrary,
the only evidence purporting to show that Jeffers was
the one who created the alleged policy to drive
Plaintiffs out of business is hearsay. See Andy Decl.
¶ 32 (Faulkner “would apologize to [Plaintiffs] stating
that she doesn’t want to pick on us all the time but she
was being sent here by (Faulkner would roll her eyes
and move[] her head in the direction of city hall,
4

This is particularly true given that Chief Rosales was not
appointed Chief of Police until February 6, 2017.
5

Plaintiff has submitted evidence tending to show this is not the
case. In a letter written by Jeffers and sent to Andy, Jeffers stated
that he “directed Code Enforcement to temporarily suspend new
enforcement activities of the code violations on this property
between the date of this letter and the March 14th deadline
above.” Dkt. 35-4 (Andy Decl., Ex. X) at 84.

App. 24
meaning that she was being sent by officials in The
City).”); id. ¶ 33 (“Glendora Police Department Service
Supervisor, Chuck Ochoa, told Slawomira and I . . .
that the citations on AAC are being ordered by Jeffers,
not Faulkner or the Glendora Police Department”); id.
¶ 50 (Dye “explained [to Andy] that Jeffers threatened
him that he would lose the Route 66 Property and his
home if he did not evict AAC.”).
On the other hand, Faulkner declared that the
City’s efforts were to obtain compliance with the
applicable codes, after Plaintiffs had failed to remedy
the violations identified in 2012 and that “[a]t no time
did the City of Glendora, City staff or City officials
implement a policy to drive Plaintiffs . . . out of
business or to drive Plaintiffs out of the City as
residents. SUF ¶¶ 80-81; Dkt. 25 (Faulkner Decl.)
¶¶ 39-40.6 And Dye testified that the reason he evicted
Plaintiffs was not because of the citations or any
pressure from the City, but because he “wanted to try
something else” and “the rent was far lower than the
current market . . . so it was partly a business
decision, mostly, to get myself squared away.” Dkt.
25-2 (Dye Dep.) at 42:3-16. Finally, when asked at his
deposition “who at the City of Glendora adopted this
policy to drive you out of business,” Andy responded to
the City’s attorney that “you work over there. You
should know. . . . I can guess, but I’m not going to
answer on my guess,” “[y]ou have the answer . . .Well,
you was sending code enforcements” and finally, “I
6

The Court interprets this statement to mean that Faulkner was
not aware of any such policy. There is no evidence that Faulk ner
has authority to speak on behalf of all City officials and staff.

App. 25
don’t know. I don’t know how you guys operate inside
the City.” See SUF ¶ 102 (citing Andy Dep. at
42:15-21, 43:25-44:2).
Plaintiffs also argue that Jeffers ratified the
conduct of his subordinates. See Opp’n at 12-13.
However, there is no evidence that he ratified
Faulkner’s conduct. For ratification to occur, the
policymaker must “approve a subordinate’s decision
and the basis for it.” Christie, 176 F.3d at 1239
(quoting City of St. Louis v. Praprotnik, 485 U.S. 112,
127 (1988)). Ratification requires, among other things,
knowledge of the alleged constitutional violation
“before the alleged constitutional violations ceased.”
Id. There is no admissible evidence that Jeffers knew
of Faulkner’s allegedly unconstitutional conduct in
issuing the 2015 and 2016 citations or that they were
issued with some improper purpose, such as in
retaliation for certain speech or to drive Plaintiffs out
of business. The only admissible evidence regarding
Jeffers shows that (1) Jeffers was aware of the 2012
inspection and was involved in negotiations with Dye
to resolve the identified violations, see SUF ¶¶ 24, 35;
Andy Decl. ¶ 43, and (2) Jeffers was involved in 2016
with attempts to resolve the outstanding violations and
citations, see Andy Decl. ¶¶ 41, 43; Dkt. 35-4 (Andy
Decl., Exs. X, Y). As to the first, it does not relate to
any actions taken within the limitations period and
does not indicate his knowledge as to actions taken
more than two years later. As to the second, that
Jeffers was involved in negotiations after the citations
had been issued does not indicate ratification. Failure
to overrule an allegedly unconstitutional discretionary
act is insufficient to support a Monell claim. See

App. 26
Christie, 176 F.3d at 1239 (“[I]t is well-settled that a
policymaker’s mere refusal to overrule a subordinate’s
completed act does not constitute approval.”); Gillette
v. Delmore, 979 F.2d 1342, 1348 (9th Cir. 1992) (“The
fact that the City Manager did not overrule the Fire
Chief in this instance thus cannot form the basis of
municipal liability under section 1983.”). Therefore,
ratification cannot form the basis for Monell liability
here.
The City has satisfied its burden to show that
Plaintiffs do “not have enough evidence of an essential
element of [their] claim or defense to carry [their]
ultimate burden of persuasion at trial.” Nissan Fire &
Marine Ins. Co. v. Fritz Companies, Inc., 210 F.3d
1099, 1106 (9th Cir. 2000). Because Plaintiffs have
failed to put forth evidence to create a genuine dispute
of material fact as to whether there was a policy,
practice, or custom to drive Plaintiffs out of business
and out of Glendora, it need not consider whether any
City employees violated Plaintiffs’ constitutional rights.
IV. CONCLUSION
The City’s motion for summary judgment is
GRANTED.
IT IS SO ORDERED.
Date: February 11, 2020
/s/ Dale S. Fischer
Dale S. Fischer
United States District Judge

App. 27

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV 17-2652 DSF (AFMx)
[Filed: February 11, 2020]
_______________________________________
ROMAN ANDY JANIEC; et al.,
)
Plaintiffs,
)
)
v.
)
)
CITY OF GLENDORA, et al.,
)
Defendants
)
_______________________________________)
JUDGMENT
The Court having granted Defendant’s motion for
summary judgment,
IT IS ORDERED AND ADJUDGED that
Plaintiffs take nothing, that the action be dismissed
with prejudice, and that Defendant recover costs of
suit pursuant to a bill of costs filed in accordance with
28 U.S.C. § 1920.
Date: February 11, 2020
/s/ Dale S. Fischer
Dale S. Fischer
United States District Judge

App. 28

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-55234
D.C. No. 2:17-cv-02652-DSF-AFM
[Filed: May 10, 2021]
_______________________________________
ROMAN ANDY JANIEC; et al.,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
CITY OF GLENDORA,
)
a municipal corporation,
)
)
Defendant-Appellee.
)
_______________________________________)
ORDER
Before: KLEINFELD, CALLAHAN, and HIGGINSON,*
Circuit Judges.
The panel has voted to deny the petition for
rehearing. Judge Callahan votes to deny the petition
*

The Honorable Stephen A. Higginson, United States Circuit
Judge for the U.S. Court of Appeals for the Fifth Circuit, sitting
by designation.

App. 29
for rehearing en banc, and Judges Kleinfeld and
Higginson recommend denial. The full court has been
advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for rehearing and rehearing en banc is
DENIED.

